No. 20-7251

 

 

IN THE

Supreme Court of the Hnited States

ERIC WILLIAMS,
Petitioner,
Vv.
TEXAS,
Respondent.

On Petition for a Writ of Certiorari
to the Court of Criminal Appeals of Texas

BRIEF FOR THE LOUIS STEIN CENTER
FOR LAW AND ETHICS AT FORDHAM
UNIVERSITY SCHOOL OF LAW AS AMICUS
CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,299 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 29, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
